<html>
<title> - THE ROLE OF U.S. AGRICULTURE IN THE CONTROL AND ERADICATION OF AVIAN INFLUENZA</title>
<body><pre>[Senate Hearing 109-508]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-508
 
 THE ROLE OF U.S. AGRICULTURE IN THE CONTROL AND ERADICATION OF AVIAN 
                               INFLUENZA
=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION


                               __________

                           NOVEMBER 17, 2005

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


  Available via the World Wide Web: http://www.agriculture.senate.gov



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
28-423                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                   SAXBY CHAMBLISS, Georgia, Chairman

RICHARD G. LUGAR, Indiana            TOM HARKIN, Iowa
THAD COCHRAN, Mississippi            PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            KENT CONRAD, North Dakota
PAT ROBERTS, Kansas                  MAX BAUCUS, Montana
JAMES M. TALENT, Missouri            BLANCHE L. LINCOLN, Arkansas
CRAIG THOMAS, Wyoming                DEBBIE A. STABENOW, Michigan
RICK SANTORUM, Pennsylvania          E. BENJAMIN NELSON, Nebraska
NORM COLEMAN, Minnesota              MARK DAYTON, Minnesota
MICHEAL D. CRAPO, Idaho              KEN SALAZAR, Colorado
CHARLES E. GRASSLEY, Iowa

            Martha Scott Poindexter, Majority Staff Director

                David L. Johnson, Majority Chief Counsel

              Steven Meeks, Majority Legislative Director

                      Robert E. Sturm, Chief Clerk

                Mark Halverson, Minority Staff Director

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

The Role of U.S. Agriculture in the Control and Eradication of 
  Avian 
  Influenza......................................................    01

                              ----------                              

                      Thursday, November 17, 2005
                    STATEMENTS PRESENTED BY SENATORS

Chambliss, Hon. Saxby, a U.S. Senator from Georgia, Chairman, 
  Committee on Agriculture, Nutrition, and Forestry..............    01
Harkin, Hon. Tom, a U.S Senator from Iowa, Ranking Member, 
  Committee on Agriculture, Nutrition, and Forestry..............    12
Stabenow, Hon. Debbie, a U.S. Senator from Michigan..............    03
                              ----------                              

                               WITNESSES
                                Panel I

DeHaven, Ron, DVM, Administrator, Animal Plant and Health 
  Inspection Service, U.S. Department of Agriculture, Washington, 
  DC.............................................................    03
Gerberding, Julie L., MD, MPH, Director , Centers for Disease 
  Control adn Prevention U.S. Department of Health and Human 
  Services, Atlanta, 
  Georgia........................................................    06

                                Panel II

Irwin, Gretta, Executive Director, Iowa Turkey Federation , Ames, 
  Iowa...........................................................    27
Kleven, S.H., DVM PhD, Regents Professor, College of Veterinary 
  Medicine, Poultry Diagnostic and Research Center University of 
  Georgia, Atlanta, Georgia......................................    25
Waldrip, Donald, DVM, Diplomat, American College of Poultry......    23
                              ----------                              

                                APPENDIX

Prepared Statements:
    Harkin, Hon. Tom.............................................    34
    Stabenow, Hon. Debbie........................................    35
    DeHaven, Ron, DVM............................................    38
    Gerberding, Julie, MD........................................    47
    Irwin, Gretta................................................    82
    Kleven, S.H., DVM, PhD.......................................    80
    Waldrip, Donald, DVM.........................................    76
Document(s) Submitted for the Record:
    Cochran, Hon. Thad...........................................    90
    Conrad, Hon. Kent............................................    92
    Roberts, Hon. Pat............................................    94
Questions and Answers Submitted for the Record:
    Harkin, Hon. Tom.............................................    98
    Dayton, Hon. Mark............................................   100



 THE ROLE OF U.S. AGRICULTURE IN THE CONTROL AND ERADICATION OF AVIAN 
                               INFLUENZA

                              ----------                              


                      THURSDAY, NOVEMBER 17, 2005

                                       U.S. Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m., in 
room SR-328A, Russell Senate Office Building, Hon. Saxby 
Chambliss, chairman of the committee, presiding.
    Present or submitting a statement: Senators Chambliss, 
Talent, Coleman, Harkin, and Stabenow.

STATEMENT OF HON. SAXBY CHAMBLISS, A U.S. SENATOR FROM GEORGIA, 
  CHAIRMAN, COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY

    The Chairman. The committee will come to order.
    I want to welcome you all this morning to this hearing to 
consider the Role of U.S. Agriculture in the Control and 
Eradication of Avian Influenza.
    I appreciate our witnesses who have traveled here today to 
present testimony on this important topic, and I welcome and 
thank those who are listening via our website.
    The topic before us today is important to all of American 
agriculture, but holds particular significance to my home State 
of Georgia. Poultry is our largest agricultural industry, and 
the State of Georgia leads the Nation in poultry production. In 
fact, if the State of Georgia were a country, it would be the 
fourth largest producer of poultry in the world. In 2004 the 
total farm value of poultry and eggs produced in Georgia was 
3.26 billion, and the statewide economic impact of the overall 
poultry industry was an estimated $13.5 billion.
    In addition, Atlanta, Georgia is the home to the Centers 
for Disease Control and Prevention, which plays a critical role 
in protecting human health against disease threats such as 
avian influenza, and Athens, Georgia is the home of the 
Department of Agriculture Southeast Poultry Research 
Laboratory, which conducts critical research on avian diseases.
    My interest in this topic is understandably high, not only 
for the Georgia poultry industry, but for the U.S. poultry 
system.
    Recent media reports have discussed avian influenza and 
what many in the media have called an impending pandemic. While 
there is legitimate concern, there has also been a great deal 
of confusion and misinformation. We must be clear: avian 
influenza is first and foremost an animal disease. The current 
outbreak in Southeast Asia and parts of Europe is affecting 
poultry and a limited amount of humans that have been in direct 
contact with infected animals. The virus has not yet 
demonstrated the ability to efficiently pass directly from 
human to human, and it is not clear at this time if this avian 
influenza virus will ever mutate to allow for a human pandemic, 
but the potential does exist. As such, it is very important 
that we pursue a sincere yet cautious approach in preparing to 
address potential outbreaks, both here and abroad.
    The most effective way to combat a potential pandemic is to 
control and eradicate the virus in poultry before it has a 
chance to negatively impact humans. It is my hope that this 
hearing today will help the members of this committee and the 
public to better understand the topic and how it may impact 
U.S. poultry production.
    We are privileged to have before us today some of the top 
experts on avian influenza, along with producers and processors 
with real-world experience. I hope they will help us cut 
through the noise and understand where we should and where we 
should not be focusing our concerns. One especially important 
point relates to the role of U.S. poultry in any future 
potential avian influenza outbreak. As I understand it, there 
is a great difference between the mostly weak strains of avian 
influenza occasionally found in U.S. birds, and the more potent 
H5N1 strain that is causing concern in Asia and Europe, a 
strain that has never been identified in the U.S.
    In addition, it is my understanding that U.S. public health 
officials do not see U.S. poultry as a likely source of any 
significant potential human avian influenza outbreak. Rather, 
it seems that the travel of humans from affected areas to the 
U.S., not our domestic poultry, is what we most need to keep 
our eyes on. I look forward to clarifying that point today.
    Second, I think it is important that we hear more about the 
safety and the biosecurity efforts of the Federal Government 
and the U.S. poultry industry. In recent conversations with 
USDA and industry officials, I have been encouraged to learn of 
all the measures that are taken to isolate U.S. commercial 
poultry from any diseases carried by wild bird populations. 
That is an important distinction between U.S. poultry 
production and the production systems in Asia. I look forward 
to hearing more about that topic as well.
    As we move toward the Thanksgiving season, we are again 
mindful of all the ways that this Nation has been so blessed. 
The security and abundance of our food supply should certainly 
rank highly among those blessings. However, despite all the 
hard work and science-based measures that make U.S. poultry the 
safest in the world, we are always striving to do better. I 
hope that through this exchange today we can reassure consumers 
regarding the safety of U.S. poultry, and identify any 
additional actions that may be needed to further enhance the 
safety and wholesomeness of this important component of the 
U.S. food supply.
    Again, I thank our witnesses for being here today, and I 
look forward to their testimony.
    Our first panel today consists of Dr. Ron DeHaven, 
Administrator, Animal and Plant Health Inspection Service from 
the U.S. Department of Agriculture. Dr. DeHaven has been a 
leader in the area of animal disease, and, Dr. DeHaven, we 
certainly look forward to hearing from you this morning.
    Also on the first panel is Dr. Julie Gerberding, Director, 
Centers for Disease, Control and Prevention, U.S. Department of 
Health and Human Services, headquartered in Atlanta. Dr. 
Gerberding has been at the forefront of any number of issues in 
her tenure as head of the CDC. She does just a wonderful job 
down there. She happens to be a very good personal friend, and 
somebody that I have great respect and admiration for with the 
job that she has done addressing the more difficult issues 
facing health care around the world, not just in the United 
States, certainly not just in Georgia, but literally around the 
world. Dr. Gerberding, we are glad you are here this morning 
also.
    We will at this time hear from Dr. DeHaven. Any members, 
Senator Stabenow, that wish to make an opening comment, you 
have that opportunity right now or we can go straight to Dr. 
DeHaven.

STATEMENT OF HON. DEBBIE STABENOW, A U.S. SENATOR FROM MICHIGAN

    Senator Stabenow. Mr. Chairman, I would just thank you very 
much for this hearing. I look forward to hearing from our 
witness today. Obviously, this is a critical issue, and we have 
talked about it from a public health standpoint, but not as 
much from an economic standpoint, and we need to be doing both.
    My home State, Michigan State University, is very much 
involved as one of the leaders as it relates to what we need to 
be doing, and I welcome both of you to be with us today, and 
think that there is a lot we have to do.
    [The prepared statement of Senator Stabenow can be found in 
the appendix on page 35.]
    The Chairman. Thank you.
    Dr. DeHaven, we look forward to your comments.

STATEMENT OF RON DEHAVEN, DVM, ADMINISTRATOR, ANIMAL PLANT AND 
  HEALTH INSPECTION SERVICE, U.S. DEPARTMENT OF AGRICULTURE, 
                        WASHINGTON, D.C.

    Dr. DeHaven. Mr. Chairman and members of the committee, 
thank you for the opportunity to testify regarding the 
Department of Agriculture's extensive efforts to protect the 
United States poultry from avian influenza.
    In recent months, as you indicated, a highly pathogenic 
strain of H5N1 avian influenza virus has been spreading across 
poultry populations in several Southeast Asian and Eastern 
European countries. There have also been documented cases of 
the virus affecting humans who have been in contact, direct 
contact, with the sick birds. There is worldwide concern that 
this H5N1 virus might mutate, cross the species barrier, and 
touch off a human influenza pandemic.
    It is with this in mind that USDA's poultry health 
safeguarding programs are more important than ever, and we have 
bolstered our efforts across the board in response to the 
evolving disease threats from overseas.
    We also believe that it is critical to effectively address 
the disease in poultry populations in these affected countries. 
Implementation of effective biosecurity measures in concert 
with control and eradication programs will go a long way toward 
reducing the amount of virus in these H5N1-affected countries, 
and thereby minimize the potential for this virus to spread to 
poultry in other parts of the world. These actions, if 
effectively implemented, would diminish the potential for a 
human influenza pandemic.
    Last week I attended an international meeting on avian 
influenza, and I can report that there is indeed widespread 
concern regarding this disease, as well as a strong commitment 
to work through international organizations to address the 
disease and improve the animal health infrastructure in 
countries in the region. That is why it is imperative that the 
United States remains engaged and share resources and expertise 
with officials in these countries.
    Here in the United States the National Strategy for 
Pandemic Influenza, announced by President Bush on November 
1st, reflects the importance of these proactive measures on the 
animal health front. The President requested $91.35 million in 
emergency funding for the USDA to further intensify its 
surveillance here at home and to deliver increased assistance 
to countries impacted by the disease in hopes of preventing 
further spread of avian influenza.
    With that introduction I want to touch on a few of the key 
points that I think will help to frame our discussion this 
morning. With regard to birds, avian influenza viruses are 
divided into two groups, low pathogenic AI or low path AI, as 
we say, and highly pathogenic or high path AI. Highly 
pathogenic viruses typically produce far more severe clinical 
signs and higher mortality in birds than the lower pathogenic 
avian influenza viruses.
    Low path AI has been identified in the United States and 
around the world since the early 1900's. It is a relatively 
common finding to detect low path AI, just as human flus are a 
relatively common finding in people. However, most avian 
influenza viruses found in birds do not pose any significant 
health risks to humans.
    Highly pathogenic avian influenza has been found in poultry 
in the United States three times, in 1924, in 1983 and again in 
2004. The 1983 outbreak was the largest, ultimately resulting 
in the destruction of 17 million birds in the States of 
Pennsylvania and Virginia before the virus was finally 
contained and eradicated. In contrast, the 2004 outbreak was 
limited to a flock of 6,600 birds in Texas. That detection was 
fond very quickly and quickly contained and eradicated. There 
were no significant human health implications or reports of 
human health problems in connection with any of these outbreaks 
of highly pathogenic AI.
    In domestic poultry the greatest concern has been 
infections with the H5 and H7 subtypes, which can be either 
highly pathogenic or low pathogenic. The low pathogenic H5 and 
H7 subtypes are always of concern because of their potential to 
mutate into the highly pathogenic form of the disease. Given 
these risks, APHIS safeguarding systems against avian influenza 
is robust, encompassing, among other things, trade restrictions 
on poultry and poultry products from overseas, anti-smuggling 
programs, aggressive targeted surveillance in commercial 
poultry operations, and the live bird marketing system in the 
northeastern United States, cooperative efforts and information 
sharing with States and industry, and outreach to producers 
regarding the need for effective, on-farm biosecurity measures.
    The USDA and our partners, including the Department of 
Interior, have also been looking for signs of avian influenza 
in wild birds in the United States, particularly in the Alaska 
Migratory Bird Flyway. As we know, these birds can serve as a 
reservoir for the disease.
    Our ability to respond to a detection of avian influenza is 
designed to be just as robust as our safeguarding system. For 
highly pathogenic AI, as well as for low path H5 and H7 
subtypes, APHIS would work with States to quarantine affected 
premises and clean and disinfect those premises after the birds 
had been depopulated and properly disposed. Positive highly 
pathogenic AI flocks would be depopulated, and meat from the 
infected flocks would not enter either the animal feed or human 
food chains. Surveillance testing would also be conducted in 
the quarantine zone and the surrounding area to ensure that the 
virus has been completely eradicated.
    On the trade front there is an important new world 
organization for animal health, or OIE, standard for avian 
influenza that obligates member countries to report any 
positive, notifiable avian influenza test result. This includes 
the reporting of all highly pathogenic avian influenza viruses 
as well as low pathogenic H5 or H7 subtypes that are detected 
in commercial poultry operations. The OIE does not recommend 
trade restrictions for non-H5 or H7 low pathogenic subtypes.
    APHIS continues to work with its trading partners to 
promote application of this new OIE standard, and in the event 
of any avian influenza outbreak in poultry in the U.S., we 
would, of course, work to control and eradicate the disease, 
and also to demonstrate to trading partners that the measures 
put in place were effective in controlling and eradicating the 
virus. APHIS would then urge trading partners to regionalize 
the United States for the disease, effectively allowing for 
trade in poultry and poultry products to continue from the 
unaffected areas.
    Even though no human cases of avian influenza had been 
confirmed from eating properly prepared poultry, I would still 
like to end by reinforcing a few key food safety messages. 
These are especially important as we look forward to the 
Thanksgiving holiday. The proper handling and cooking of 
poultry provides protection from all manner of viruses and 
bacteria, including avian influenza.
    Important food safety steps include washing hands, utensils 
and surfaces that have come in contact with raw poultry, fish 
and meats simply with warm soap and water. Avoid cross-
contamination of other foods with raw meat, poultry, fish and 
their juices.
    And of course, cook meat thoroughly and use a food 
thermometer. Cook ground turkey and chicken to a temperature of 
165 degrees Fahrenheit, chicken and turkey breast to 170 
degrees Fahrenheit, and whole birds, legs, thighs and wings to 
180 degrees Fahrenheit. Obviously, never consume raw or 
undercooked poultry or poultry products, and all meat products 
and other perishables should be refrigerated promptly after 
serving.
    With that, Mr. Chairman, I will end my statement, but I do 
look forward to answering any questions that may come up.
    Thank you again for the opportunity to testify before the 
committee.
    [The prepared statement of Dr. DeHaven can be found in the 
appendix on page 38.]
    The Chairman. Thank you very much.
    Dr. Gerberding.

 STATEMENT OF JULIE L. GERBERDING, MD, MPH, DIRECTOR, CENTERS 
 FOR DISEASE CONTROL AND PREVENTION, U.S. DEPARTMENT OF HEALTH 
              AND HUMAN SERVICES, ATLANTA, GEORGIA

    Dr. Gerberding. Thank you. As a citizen of the poultry 
capital of the world, we are very grateful for your leadership 
and your interest in this issue, Senator, and thank you very 
much for including CDC in this hearing.
    Dr. Lonnie King is a veterinary scientist who is now with 
CDC, but he was the Dean at the Michigan State School of 
Veterinary Medicine, and he has been very instrumental in 
helping CDC create linkages to APHIS and the animal health 
kingdom, so we are increasingly understanding that to protect 
human health, we also have to be very engaged with animal 
health protection. I think it is great that we are here with 
the Agriculture Committee, and that is a step forward for 
health protection in a number of fronts in the future.
    What I wanted to do is to give a context of where we are 
with the avian epidemic today, so that we can think ahead about 
what are the additional steps that we need to take to protect 
animal and human health.
    I think point No. 1 is illustrated on this graphic, which 
is a timeline of epidemics that have occurred over the past 
century. Three large ones most people are familiar with: the 
Spanish flu epidemic, and two smaller ones. But the point here 
is that pandemics happen. They happen periodically, many times 
over the past centuries, and sooner or later it is very likely 
that we will have another pandemic whether or not it is a 
pandemic caused by this particular H5N1 avian virus.
    On the next graphic I have presented a snapshot of where 
the outbreaks are today in Asia and Eastern Europe. We have 
active outbreaks in 11 countries right now. Most of the 
countries that have surveillance, have detected at least some 
infected birds at one time or another. And we have some 
countries such as Burma or Malaysia where we have very little 
information about the status of infection in poultry, and 
because they lack surveillance systems and transparency, we are 
unable to really predict what the true state of affairs is in 
Asia.
    I was able to travel to Asia with Secretary Leavitt in a 
U.S. delegation that included the Director of the World Health 
Organization, scientists from USDA and others, and we were 
impressed with the scope and magnitude of the challenge of 
containing this virus in birds in that region, in large part 
because of the cultural practices, where you have the ducks and 
the migratory waterfowl that may be an important asymptomatic 
carrier of the virus, housed and transported to market next to 
the poultry that are used to provide a major source of protein 
and a major source of the economy in this region. There are 
people literally living in the water where these migratory 
birds are and having very close personal contact with infected 
animals.
    The next graphic portrays, the point about how this disease 
is transmitted. This is a disease of birds, but people are 
exposed when they have intimate contact with the birds. One of 
the most compelling stories to me was a little boy who had a 
pet chicken in his yard, and the chicken acquired the H5N1 
virus, and the little boy was nurturing the chicken, trying to 
bring it back to health, and of course he caught the virus from 
the chicken's droplets and died of a very, very severe case of 
this influenza. But it points out that it is the chickens that 
have the viruses, the ducks that have the virus, and that this 
is primarily a bird infection, not a people inflection, and you 
acquire it by having close contact with sick birds, not through 
the means that we would normally acquire influenza.
    On the next graphic, just a reminder of the migratory bird 
flyways. We do not know if the H5N1 is going to move further 
than it already is traveling across Western Asia and into 
Eastern Europe, but certainly the overlapping flyways suggest 
that that could happen, and we need not be surprised if 
somewhere, someday, a bird carrying H5N1 enters the United 
States. We need to prepare people for this and have the 
confidence that APHIS and our Department of Agriculture and our 
Department of Interior are doing all the things that they need 
to be doing to protect our domestic bird populations, as well 
as the people who come in contact with those birds.
    So the fear here is not arrival of a pandemic on the wings 
of a bird. It is here because of the potential for the virus to 
change and become more transmissible person-to-person. And as 
you pointed out in your remarks, Senator, it may be the arrival 
of a new virus strain from person-to-person transmission that 
we should be focusing our attention.
    Where we are today in the WHO's list of steps that 
typically precede a pandemic. We have certainly seen widespread 
and spreading H5N1 infection in migratory and domestic birds 
with a broad host range.
    We have checked off the box that indicates continued 
outbreaks among domestic poultry. These have not come and gone. 
They continue to crop up in the parts of the world that have 
these cultural practices that promote spread.
    We know this virus can infect mammals and infect mammals 
with lethal infection, including cats, pigs; we have seen 
tigers in the zoos who are fed contaminated chicken meat, get 
sick and die, and the infection has high lethality.
    We know the virus continues to evolve. The strain that we 
isolated from Vietnam and made the prototype vaccine to has 
evolved now into a new clade that has some different antigenic 
properties and may have some different biological properties.
    We know this can infect humans, mostly young and healthy 
people, probably because they come in contact with the sick 
chickens. The case fatality rate is very high, and some recent 
work done in CDC's laboratories indicate that the reason for 
this is probably the virus itself. It has a very lethal 
configuration that causes a very severe invasion of the lungs, 
much like the 1918 virus that was so fatal in young and health 
people.
    The box not checked here is the most important box. We have 
not seen sustained person-to-person transmission, although we 
have seen isolated cases where the virus has spread from one 
person to another, and it is the absence of that box that 
reassures us.
    Finally, what is the big picture of the approach to dealing 
with this problem? I think the President spelled it out in his 
national strategy, and Secretary Leavitt has created a very 
comprehensive doctrine on our containment efforts.
    First of all, we will assume that if there is a human 
outbreak anywhere, it is a threat everywhere, and we will 
proceed accordingly.
    Second, if feasible, we will take every step to contain the 
problem. First and foremost, that is containment in animals as 
my colleague has pointed out. But if it emerges in people, we 
will act aggressively to quarantine, isolate, treat and 
prophylax anyone in the localized area of an outbreak that we 
can in an effort to quench the virus. If that proves to not be 
feasible, then of course we will move into a phase of trying to 
slow down its spread from one region to another or one 
community to another, and the antiviral and the vaccine 
production capability that the President has proposed and 
Congress has proposed are extremely important components of a 
broad pandemic preparedness, whether it is H5N1 or any other 
virus.
    And finally, I think the most important issue here is the 
collaboration, communication and transparency. You are seeing 
evidence of how the Federal agencies are working together, and 
I think we are very proud of those connections, but we are also 
very actively engaged in collaborations with the World Health 
Organization, with the OIE and the FAO, with Ministers of 
Health and Ministers of Agriculture from around the world, and 
certainly business leaders, private sector leaders and citizens 
who have these concerns.
    So with this network of preparedness, I think we have a 
good chance of being able to ward off a pandemic, and an 
excellent chance of being able to do more to contain this 
particular virus.
    Thank you for your interest.
    [The prepared statement of Dr. Gerberding can be found in 
the appendix on page 47.]
    [The charts of Dr. Gerberding can be found in the appendix 
on pages 68-75.]
    The Chairman. Thank you both for very strong statements and 
very informative statements.
    Dr. Gerberding, there have been some recent press reports 
regarding the possible infection of individuals in Southeast 
Asia with the H5N1 virus. It is my understanding, from what you 
just said, and also, Dr. DeHaven, from what you said--and I 
want to make sure that this is absolutely clear--that there is 
no indication at this point in time that there has been any 
human-to-human transfer of that virus. Is that correct?
    Dr. Gerberding. That is not entirely correct. There have 
been two or three examples where one person has transmitted the 
virus to another. In those cases it has been because of very 
close personal contact with a very sick and sometimes dying 
patient; so health care worker context or a family context 
where a family member is providing direct care to another 
family member. But we are convinced in the couple of cases that 
have been very thoroughly investigated that that has happened. 
It has not been efficient and it has not spread beyond those 
single next closest contact.
    We would be worried if we saw person-to-person-to-person 
transmission. That would suggest that the virus was adopting to 
be more efficiently moved in that way.
    The Chairman. There is a story in the Washington Post this 
morning where China has confirmed two bird flu cases. Does your 
office stay in contact with countries such as China regarding 
this situation?
    Dr. Gerberding. We are very pleased because we actually 
have one of our most senior scientists in China right now with 
the World Health Organization team, and she is investigating 
those cases alongside the Chinese scientists. So unlike 
previous situations, the Chinese asked for assistance early. 
They have opened up the scientific investigation to external 
experts and they have been very transparent in this particular 
province, in allowing us to understand what is going on. But we 
do believe that there have been three cases of avian influenza 
there, and the two deaths may not be officially reported yet, 
but we believe those are accurate reports.
    The Chairman. Dr. DeHaven, I think I understand what you 
said is that if an outbreak of highly pathogenic avian 
influenza were to occur in the United States, our main 
priorities would be the swift identification, control and 
eradication of the disease. In order to effectively accomplish 
this goal, local, State and Federal authorities must pursue a 
coordinated detection and response plan. It is my understanding 
that APHIS is the lead agency in addressing a domestic outbreak 
of avian influenza, but that several other agencies are 
involved in a coordinated effort. Can you please describe how 
the detection and response plan for avian influenza is 
coordinated within the Department of Agriculture, and are you 
satisfied with the responsiveness and coordination from other 
Federal agencies to ensure the orderly and timely flow of 
information?
    Dr. DeHaven. Mr. Chairman, thank you for the question. I 
think it is very timely in that APHIS has been dealing with 
avian influenza viruses for decades, and it is important to 
recognize that, given the context of the current H5N1 
situation, that we in fact already have in place mechanisms for 
exclusion of avian influenza--if it does enter the United 
States--for early detection and rapid response, so we in fact 
have been in the avian influenza eradication business for 
decades.
    Our response mechanism in fact is at the State level, where 
in any given State we have prepositioned people, prepositioned 
plans where our senior Federal veterinarian, our area 
veterinarian in charge, would work directly with the State 
veterinarian in co-directors in a State level response. We have 
created a animal laboratory network. We currently have 36 State 
laboratories, for example, that have been trained to do PCR 
testing for avian influenza. So if we were to have a widespread 
outbreak, we would have the laboratory capacity needed for 
diagnosis. While our response would be at the State level, we 
virtually have that level of response in all States, so that we 
have the resources in unaffected States to divert toward those 
States that might be affected so that we can have a regional 
response.
    FEMA has also recently identified an additional Emergency 
Support Function, No. 11, for food, agriculture and water, so 
just as all of the resources of the Federal Government would 
come to bear in a natural disaster, we similarly would have 
access to resources of all of the Federal Government in a 
widespread outbreak through this emergency support function for 
food, agriculture and water, in which APHIS is a lead agency. 
So I think we have a number of response mechanisms in place. We 
have had the opportunity to use those in real life situations 
very effectively, and we are constantly doing test exercises to 
test our preparedness.
    The Chairman. Dr. DeHaven, you have certainly traveled 
extensively and dealt with any number of countries relative to 
this issue. What is your assessment of the veterinary 
capability of countries where this deadly strain of avian 
influenza is present and are there things that need to be done 
that are not being done?
    Dr. DeHaven. I think it is prudent that we continue, as Dr. 
Gerberding has pointed out, to prepare for the potential for a 
human pandemic, and with the President's strategy there is lots 
of preparation that is ongoing. At the same time the 
President's strategy also provides resources for us to better 
attack the virus at its source, namely the birds, in countries 
that are affected with this particular virus. It would appear 
from the reports that I have received that in fact the ability 
of the various affected countries to respond varies greatly. 
Some countries in fact have the large commercial poultry 
operation capability, they have good veterinary infrastructure, 
and their ability to respond and eradicate this virus is quite 
good.
    On the other hand, some of the lesser developed countries 
in fact do not have that infrastructure. Their commercial 
industry really is made up of individual producers who are 
raising poultry for their own consumption or very limited 
distribution of their product and they simply do not have the 
infrastructure. Part of what we need to do is work more 
effectively through international organizations and 
international partners to provide the expertise and to provide 
the resources to better attack this virus. Indeed, by reducing 
the virus load in affected countries, then we at the same time 
reduce the potential for this virus to mutate and become the 
pandemic virus that we are concerned about.
    So again, I think the resources are there in the 
President's request for additional funding. Many of those 
activities that we would participate in internationally through 
international organizations would go toward just that effort, 
reducing the virus load in poultry in the affected countries.
    The Chairman. Let me ask this question to both of you. You 
mentioned the funding that has been requested by the President. 
In your opinion, is that level of funding adequate in the 
opinion of each of you?
    Dr. DeHaven. I will address it from an animal health 
perspective. And indeed, there are some very important items in 
that strategy on the animal health side that would go a long 
way toward helping to reduce the threat. Of the $91.35 million 
that has been identified for the Department of Agriculture, for 
example, $8 million would be directed toward surveillance and 
diagnostic activities in wildlife, poultry and swine 
populations in the affected countries. We would envision 
placing consultants on a long-term basis in the affected 
countries, consultants that can provide expertise in 
diagnostics, in eradication and control efforts, in 
epidemiology.
    So working collectively with the international community, 
with other like-minded countries who recognize the importance 
of attacking this virus at its source, but working through 
international organizations such as the WHO, FAO and OIE, we 
think that these resources collectively with those resources 
made available through the international community can go a 
long way toward reducing the virus load in those countries and 
reducing the potential for this to become a pandemic virus.
    The Chairman. Dr. Gerberding?
    Dr. Gerberding. As a public health official who has 
struggled now for many years to try to deal with the problem of 
seasonal influenza and our vaccine shortages, I looked on these 
budget proposals for pandemic preparedness as amazing days in 
the history of public health, that we finally can imagine a 
situation where we could take the vaccine problem off the 
table, modernize the vaccine, build the production capability 
and rescue our vaccine manufacturers.
    I also think it is important to recognize that what has 
been proposed as emergency supplemental investment comes on top 
of other money and resources that we are already spending, just 
as APHIS is already spending resources for influenza and 
pandemic preparedness, and we cannot look on it as a one-shot 
solution. It is going to take a sustained investment over time 
to really do this, but without the supplemental there is no way 
that we could make the kind of rapid-scaled progress that we 
need to achieve.
    The last perspective, again from the public health domestic 
view, in a situation like this we are only as protected as the 
weakest link in our network, and that means that we have a 
shared responsibility with State and local health agencies, 
with health care organizations, with the business sector and 
with schools, and we have got to bring every single part of 
that network into our safety network to really deal with the 
problem of a spreading pandemic, particularly if it happened 
before we had a vaccine. So we really need to be using these 
investments and leveraging them to prepare the whole system, 
not just look at vaccine and antivirals.
    The Chairman. I think you have in part answered my next 
question, which is, by having all this focus and attention 
right now on this particular strain of avian influenza in 
Southeast Asia and certain parts of Europe, are we distracting 
our attention away from other potential health threats that may 
be out there that could be an even bigger problem than this?
    Dr. Gerberding. From a human health perspective, I do not 
think so. Secretary Leavitt has pointed out several times how 
valuable these pandemic investments are in other ways. With 
these investments we will finally have a seasonal flu vaccine 
that could save 36,000 lives every year. We will have a 
surveillance network that will allow us to recognize and detect 
nationally and internationally when new viruses emerge, and we 
will have in some sense the peace of mind of appreciating that 
that is one set of threats that we have taken a giant step 
forward in being able to recognize.
    I think a fourth component of that really is the 
intersection of animal and human health. I mean I just have to 
keep mentioning that so assertively because 12 out of the last 
13 important new infectious disease threats in people have 
arisen from animals. So if we do not figure out how to connect 
our surveillance systems and how to work collaboratively in 
these infectious disease arenas, we will continue to have these 
emergences and these problems. So this pandemic environment 
gives us an opportunity to really create a new paradigm for 
human and animal health protection.
    The Chairman. Last, because a week from today there are 
going to be folks all across America who are going to be eating 
poultry products, I want to make one thing absolutely clear, 
coming from two of the top experts in the world relative to 
this issue. Can you please tell the American people if there is 
a danger from avian influenza that could affect individuals who 
are going to be eating turkey, chicken and other poultry 
products next week? What do they need to do to make sure that 
there is no disease, whether it is this disease or something 
else, in their poultry products? Would both of you just comment 
on that for the record, please?
    Dr. Gerberding. Food safety generically is an important 
part of every household at holiday time or other time, and I 
think the common sense steps that my colleague pointed out in 
his opening testimony of attention to proper food preparation 
and the appropriate cooking temperatures, using a thermometer 
and just using the same common sense things that we practice at 
any time that we are focusing on food safety.
    There is no special threat associated with eating turkey or 
chicken or any other good food on this holiday, and I hope 
everyone has a wonderful holiday time with their families.
    Dr. DeHaven. I would just echo Dr. Gerberding's comment. 
First of all, we do have very good surveillance in place for 
the poultry in the United States, and there is absolutely no 
evidence that we have this Southeast Asian of H5N1 either in 
animals of humans in the United States, and indeed we have good 
surveillance looking for it. Even if it were here, simple good 
food practices, food sanitation practices in the kitchens are 
critical whether it is for avian influenza or any of the other 
bacteria that might represent a risk. So at the end of the day, 
there is no greater threat this Thanksgiving than any 
Thanksgiving with regard to avian influenza or other pathogens.
    So I would hope that all Americans would feel comfortable 
enjoying the poultry over the Thanksgiving holiday.
    The Chairman. Great.
    Senator Harkin.

     STATEMENT BY HON. TOM HARKIN, A U.S. SENATOR FROM IOWA

    Senator Harkin. Thank you very much, Mr. Chairman. I want 
to welcome our two witnesses, Dr. Gerberding and Dr. DeHaven, 
and thank you, Mr. Chairman, for having this hearing to take a 
look at the role of U.S. agriculture and this whole threat of a 
pandemic.
    I do not think we have given enough attention to the threat 
of avian flu to agriculture. It is more highly likely that this 
will come to the United States via birds than humans because it 
is already widespread in flyways and can cross over from birds 
to poultry. I think avian flu in our poultry probably has the 
ability to instill a lot of fear in the American people, and 
that could be more devastating than the disease itself in 
poultry.
    Obviously, for my State I have a great interest in this. We 
are the top producer of eggs. We are the 10th largest turkey 
producer. I know we have on our next panel, Gretta Irwin from 
the Iowa Turkey Federation to bring Iowa's perspective on this 
and how the industry is preparing for it. There is one other 
aspect, we are also the largest producer of hogs. And as Dr. 
Gerberding pointed out, avian flu has been found to cross over 
into swine, and the interesting thing about swine is swine can 
have both the avian flu and also human flu viruses can coexist 
in the same animal. So many experts have said that swine is 
sort of the mixing vessel that might lead to a pandemic since 
both of these can coexist in swine at the same time, transform 
it into a virus that can infect humans.
    That may be a remote possibility right now, but, again, we 
need to buildup our surveillance capacity in general to make 
sure we keep on top of this.
    The other point that I am concerned about is whether or not 
there is enough of, say with the Department of Agriculture and 
the Centers for Disease Control and Prevention, are you 
conversing, is there enough of a open system there so that you 
two are talking? I will have a question about that. I am 
concerned about the information sharing in both Department of 
Agriculture and the Centers for Disease Control and Prevention.
    Mr. Chairman, I just ask that the remainder of my statement 
be made a part of the record.
    The Chairman. Without objection.
    [The prepared statement of Senator Harkin can be found in 
the appendix on page 34.]
    Senator Harkin. Dr. Gerberding, a couple of years ago I 
asked Under Secretary Hawks at a hearing here regarding the 
implementation of the national animal ID system if USDA was 
bringing in entities like the Centers for Disease Control for 
guidance, given that some animal diseases such as avian flu 
could someday cross over into humans. Under Secretary Hawks 
said they were open to comments from whomever, but was not 
seeking the CDC out while developing the animal ID system. This 
concerned me, so I followed up and wrote to then-Secretary Ann 
Veneman, and asked what USDA had done to seek out guidance from 
CDC. In response, a letter to me said there was ongoing 
coordination with agencies responsible for protecting public 
health and safety, including the CDC and Department of Homeland 
Security.
    I guess I will just ask both of you. I will start with Dr. 
Gerberding. Are you aware of how frequently the USDA seeks out 
CDC's guidance while implementing an animal ID system, and what 
role has the CDC played to ensure that public health concerns 
are adequately addressed within this animal ID system?
    Dr. Gerberding. Senator, I am not familiar with the animal 
ID system, and I have not been involved in those conversations. 
But we do have a USDA scientist who physically works at CDC 
now. It is Tom Gomez, who is our USDA liaison, and he generally 
is the conduit that helps us connect those dots. This is a 
relatively new thing for us, so I will check.
    Senator Harkin. Let me ask Dr. DeHaven. Dr. DeHaven, how 
often do you consult with CDC?
    Dr. DeHaven. As Dr. Gerberding mentioned, with Tom Gomez, 
one of our veterinary medical officers whose duty location is 
at the CDC in Atlanta, that dialog is ongoing on a daily basis 
involving animal ID and a number of issues. We can certainly 
check, Senator, in terms of what specific communication there 
has been and when with regard to animal ID, but I look at it as 
more of an ongoing dialog.
    I can tell you though, for example, we both on the human 
health and animal health side are developing laboratory 
networks, networks that would need to communicate in the event 
of a disease outbreak situation that was zoonotic in nature, 
affecting both animals and humans, and through our linkages 
between those laboratory networks. So I think the communication 
is good. We recognize the need to continue to nurture that 
relationship and see it grow.
    As Dr. Gerberding has pointed out, most of the new emerging 
disease threats are in fact zoonotic in nature. There is an 
animal and a human component. We recognize that communication 
is good, but needs to get better.
    Senator Harkin. I will ask a question. You might just 
respond on the record if you want later on, but does USDA's 
national animal identification plan, as currently envisioned, 
allow CDC to adequately coordinate and protect human health in 
the even of an animal disease outbreak if such a disease were 
to cross over to humans?
    Dr. DeHaven. The network, as envisioned, would provide 
access to the Department of Agriculture for all of the disease 
tracking purposes that we need. To the extent that that 
information would be useful in a situation that also involved a 
human health component, I have no doubt that there would be 
that communication.
    We can respond, Senator, for the record in terms of what 
formal discussions there have been as we develop the national 
animal ID system.
    Senator Harkin. I would like to follow up with that.
    Two other questions. What is the current structure of 
animal disease surveillance in the U.S., Dr. DeHaven? I mean 
who is responsible?
    Dr. DeHaven. The Animal and Plant Health Inspection Service 
is responsible for animal disease surveillance and----
    Senator Harkin. And you are in charge of that?
    Dr. DeHaven. I am indeed, yes. We have created a National 
Surveillance Unit. In the past surveillance has been on a 
disease-by-disease specific basis, so if we wanted to know 
about the prevalence of brucellosis in cattle, we have had a 
cattle brucellosis program. We recognize the need for a 
coordinated comprehensive surveillance program. Hence, the 
creation of this National Surveillance Unit. If we are taking a 
sample of blood from a swine, for example, and there is some 
concern about potential for swine to be affected with an avian 
influenza virus, then in fact let's use that sample for 
multiple disease purposes.
    Senator Harkin. What assurance can you give us that if a 
bird, a chicken, turkey, domestic duck, dies, that samples are 
taken of that to determine what it died of, that we would know 
right away whether or not it was caused by an avian flu?
    Dr. DeHaven. We have a number of surveillance in place for 
poultry and other birds in the United States. Through our 
National Poultry Improvement Program virtually every breeding 
flock in the country is under surveillance. Any company that 
wants to export poultry to another country is required to test 
those birds of the birds from which that meat would be derived 
for avian influenza. We have required testing for birds going 
to our live bird markets in the Northeast, and hope to expand 
that to live bird markets everywhere else.
    Because of the Exotic Newcastle disease situation a couple 
of years ago in the southwestern part of the United States, we 
have reached out to individual backyards of flocks. We have a 
network of laboratories that will do testing there.
    I think it is also important to realize that this 
particular virus that is in parts of Asia and Europe, as well 
as any other highly pathogenic avian influenza virus, would be 
first notices because it does produce mortality. So our 
commercial industry, turkey, chickens, as well as the 
commercial duck industry, is acutely aware of any increase in 
mortality, any drop in egg production in laying flocks, and I 
feel confident that that kind of change would be quickly notice 
and diagnosed at one of our networks of laboratories.
    Senator Harkin. You have a high level of confidence that 
you would know rapidly.
    Dr. DeHaven. Indeed. I think that situation in Texas in 
2004 points that out, as we limited that outbreak to one flock.
    Senator Harkin. Right. In an article that the chairman 
referred to this morning, it said that China was getting ready 
to inoculate a billion birds. I do not know where they get all 
that vaccine. But you have how much, $18 million--well, it is 
91 million for USDA avian flu prevention and control 
activities. If avian flu were to break out here, would that be 
a course of action we might want to take, like China is doing, 
to inoculate every chicken and turkey and domestic duck or 
whatever in the United States?
    Dr. DeHaven. Senator, vaccination is one of the tools that 
we want to have in our toolbox. But if we were to have an 
outbreak of avian influenza, either low pathogenic or highly 
pathogenic, this H5N1 or another virus, our first course of 
action typically is going to be to depopulate, to eradicate 
that virus, rather than to vaccinate and control the virus.
    Having said that, we do want to have vaccination as one of 
the tools. We currently have a bank of avian influenza vaccine, 
40 million doses in the bank for just that purpose. Typically 
we would use that vaccine to ring vaccinate, to try and contain 
an outbreak situation while we eliminated it. But typically 
because of trade implications of vaccination, as well as not 
wanting to live with the virus, our first course of action is 
to depopulate, to eradicate that virus completely. There may be 
instances where vaccination may be part of a broader 
eradication effort.
    Senator Harkin. You rely upon State veterinarians for a lot 
of your information, right, for surveillance?
    Dr. DeHaven. We work in cooperation very closely with State 
veterinarians and State Departments of Agriculture, yes, sir.
    Senator Harkin. I just openly wonder if they have the funds 
they need in the State level to do an adequate job.
    Dr. DeHaven. Some of the monies that are requested in the 
President's emergency funding request, $10 million in fact, 
would go toward additional cooperative agreements with the 
States. Of course we already have cooperative agreements in 
place with the States to help fund some of their activities in 
our disease programs.
    Senator Harkin. I see that $10 million.
    Thank you very much, Mr. Chairman.
    The Chairman. Senator Stabenow.
    Senator Stabenow. Thank you, Mr. Chairman.
    I am so pleased to hear that Dr. Lonnie King is working 
with you at CDC, and I know you are in good hands then with 
Michigan State represented.
    A question on our emergency preparedness. Right now one of 
the questions that we have to resolve is to make sure that 
there is a clearly defined emergency preparedness plan with 
clear protocols relating to the Federal Government and the 
State Government. Do we have that now?
    Dr. Gerberding. What we have, first of all, is a national 
strategy that puts all of the components of Government on 
notice that they may have a role to play. Secretary Leavitt and 
CDC and others in the Department of Health and Human Services 
have the National Health Plan that was just presented a couple 
of weeks ago, which defines all of the components of 
preparedness that are necessary throughout our States and local 
communities.
    What we are doing now is working directly with the leaders 
of those enterprises to translate sort of this hard copy of a 
plan into something that would actually operate in the context 
of an emergency, and Secretary Leavitt will be having a summit 
with leaders, and then we will be going out to communities all 
over the country to really translate a book of planning into 
some actual plans that make sense at the local level.
    Senator Stabenow. So we are not there yet. So we are at a 
point where the intent is there, the statements about the fact 
the local communities and States may be involved and so on, but 
we are not there yet.
    Dr. Gerberding. What we have is the strategy, the doctrine. 
The roles and responsibilities have been clearly articulated, 
at least for the public health side of the house. But now we 
just have to get that knitted together in a network that does 
not have any gaps in it. That is a tall order, and we will do 
it as quickly as we can.
    Senator Stabenow. Do you feel confident then that the State 
of Michigan, as an example, or any State, knows what their role 
is right now from the health standpoint?
    Dr. Gerberding. I hope they have read the plan, but we will 
be meeting. The State of Michigan has been invited to a summit 
with Secretary Leavitt and other leaders in the next couple of 
weeks, and we will be sitting down and walking through all of 
those roles and responsibilities in each element to be sure 
that the leaders really understand what we think needs to be 
done, and will learn something from that too because there are 
States that have already taken some important steps forward and 
we want to disseminate those advances that the leaders at the 
State and local level have already presented.
    Senator Stabenow. What about from the USDA side of the 
equation?
    Dr. DeHaven. We have in place in virtually every State a 
State level animal health emergency response organization. Most 
of what we accomplish in APHIS we do so in concert with the 
State Departments of Agriculture, so our State level response 
organization would be coordinated by the State veterinarian as 
well as our senior Federal veterinarian in each State. So 
whether it is preparation for an outbreak of avian influenza or 
foot and mouth disease or Africa swine fever, I think that we 
are well prepared.
    Those State level response then would be coordinated 
regionally through our regional offices and then nationally. 
All of our employees are being trained in incident command 
systems, so I think that preparing for emergencies and in fact 
responding to emergencies is what we do.
    We have taken our emergency plans and we are customizing 
them, if you will, for the specific threat that this H5N1 virus 
represents, so that I think we are prepared, but we want to 
make sure that our preparations include any unique requirements 
that might come from this particular virus.
    Senator Stabenow. I understand that funds are being 
discussed as to States and also farmers directly in planning 
and becoming prepared. I am wondering are there currently 
available funds for on-farm biosecurity?
    Dr. DeHaven. There are indeed, and I think that while we 
also re-partner with our State colleagues, we also partner very 
effectively with the poultry industry.
    A couple of years ago, largely in response to an outbreak 
of Exotic Newcastle disease, another devastating poultry 
disease, we had a $4.4 million campaign called ``Biosecurity 
for the Birds.'' It was directed at commercial poultry, but 
also backyard flocks, for the sole purposes of identifying that 
there are threats out there, educating producers as to what 
they might see if there a problem, and directing them to 
contact the appropriate officials, typically a State official, 
if they have a problem.
    Part of the request that the President has made would 
include additional monies for outreach, but I think we could 
buildupon that Biosecurity for the Birds campaign that is 
already in existence and buildupon that.
    I feel comfortable that the commercial industry in 
particular understands biosecurity. They understand that with a 
reservoir of wild birds for avian influenza viruses, they are 
at threat all the time for the introduction of an unwanted 
pathogen. So by practicing good biosecurity, taking some very 
common sense easy measures to keep unwanted pathogens off the 
farm and out of the poultry houses, that they in fact have been 
very effective. There is certainly a heightened awareness right 
now with the current threat.
    Senator Stabenow. One final question. Overall right now, do 
you feel prepared or how soon will you be prepared for what has 
been discussed here as a huge threat to us in terms of the kind 
of pandemic that we are talking about from a public health 
standpoint?
    Dr. Gerberding. I do not think any of us feel prepared for 
a pandemic at this point in time. I do not think anyone in the 
world is prepared for a pandemic right now. But we feel hope, 
and hope has come in the form of a lot of hard work that has 
been going on for several years, and certainly been escalating 
in the context of H5N1. But I think it has also been 
accelerated by the leadership, by the President's proposal, by 
Congress's awareness and willingness to take this seriously, to 
recognize the scope of investment that is necessary to 
accelerate what we are doing. And again, the single biggest 
advance, in my view, is the potential that we really will have 
a vaccine for flu that will ultimately allow us to take this 
problem off the table.
    Senator Stabenow. The question is, though, how soon--I mean 
at this point it is great and I am hopeful, we are all hopeful, 
but are we fast enough moving on the track in providing the 
resources that we are going to be able to address what is 
coming?
    Dr. Gerberding. We hope we will have the resources we need. 
That has not happened quite yet. And we also recognize that 
even with those investments, we are not talking about something 
that is going to get fixed overnight. It will take several 
years to get the vaccine problem solved. It will take a couple 
of years to get an antiviral stockpile built up. We need new 
antivirals. We need a level of preparedness that is 
significantly beyond where we are today. But it is a big step, 
and I think we need to look on that as a challenge and make the 
very best use of these investments that we can.
    Senator Stabenow. Thank you, Mr. Chairman.
    The Chairman. Senator Coleman.
    Senator Coleman. Thank you, Mr. Chairman.
    First, Dr. DeHaven, I understand the chairman asked a very 
pertinent question about Thanksgiving turkeys, and what folks 
know, we can all enjoy turkey over Thanksgiving. In your 
written testimony--I want to make sure I understand this--you 
indicate that no human case of avian influenza have been 
confirmed eating properly prepared poultry. And then you kind 
of go through a nice kind of litany of the right things to do, 
to cook the meat, poultry properly using proper temperatures, 
food thermometer check. Then you kind of go further then 
talking about always refrigerate perishable foods within 2 
hours of taking it out of the refrigerator, et cetera, et 
cetera.
    This issue of refrigeration, that is simply good food 
handling. That does not have to do with avian flu. In other 
words, once you kill it, if you have cooked it properly, you 
are not worried about if you do not chill it, refrigerate it. 
The issue is not about it regenerating, right, it is simply you 
do not want to get some other problem caused by improper 
handling of food.
    Dr. DeHaven. You are exactly correct, Senator Coleman, the 
comments go toward just good food sanitation practices. This 
particular virus, all avian influenza viruses are quite 
susceptible to normal cooking temperatures, and so we are just 
espousing good food sanitation in the kitchen.
    Senator Coleman. So it does not have any special 
regenerative qualities once you have killed the virus?
    Dr. DeHaven. Absolutely not.
    Senator Coleman. You indicated in response to my 
colleague's question about working with State veterinarians. 
Minnesota has a poultry industry that has a 25-year record of 
actively looking for various concerns including AI, 
specifically designed surveillance programs. Tell me, how USDA 
utilized lessons learned from existing programs? Are there 
things that we are doing on a State level that provides some 
insight or helping? I am just trying to understand the 
coordination between the stuff that appears to be working 
pretty solidly at the State level and what we are doing at the 
Federal level.
    Dr. DeHaven. I am very proud of all of the accomplishments 
of APHIS in the disease, control and eradication front, and 
particularly with regard to some of our eradication of the 
introduction of foreign animal diseases. But I cannot say that 
in good faith without also recognizing that everything that we 
accomplish virtually in APHIS is done in concert with our State 
colleagues in the State Departments of Agriculture. So at the 
State level it is the State veterinarian working side-by-side 
with our Federal area veterinarian in charge that carries out 
all of our programs. Our emergency response mechanism is 
directed at the State level, here again directed by the senior 
Federal veterinarian and the senior State veterinarian in each 
State.
    So the fact that we are now working with avian influenza, 
we have worked side-by-side in, in fact, avian influenza and 
Exotic Newcastle disease eradication efforts. This is just one 
more threat where we are working collectively to increase and 
bolster our ongoing efforts.
    Senator Coleman. Dr. Gerberding, as Chairman of the 
Permanent Subcommittee, we did hearings on SARS and you came 
before us, and there was this great fear that SARS was going to 
be a pandemic and it did not happen. I note in the Reuters 
article that the Chinese Premier says, ``In 2003 we defeated 
SARS. This will inspire us to victory over bird flu.'' What is 
the difference here? Did we miss something with SARS or did we 
overreact? Are we overreacting here? It is perhaps a two-part 
question. We have seen now cases, human cases. What is it going 
to take to trigger--how does this pandemic get triggered? It is 
already now in humans. What is going to happen that has not 
happened so far that we should really worry about?
    Dr. Gerberding. The feared change is that the virus itself 
will either evolve slightly and become more adaptable to 
person-to-person transmission, which is very inefficient right 
now, or as Senator Harkin pointed out, the avian virus would 
infect a swine or some mammal and that mammal would also be 
infected with regular seasonal flu that already is easily 
transmitted person-to-person, the genes would be exchanged and 
we would end up with a hybrid that had the worst features of 
both. Those things have happened in the past, and we have no 
knowledge right now from a scientific perspective that would 
allow us to predict when and if they will happen again. We just 
know that it is possible, and that is why we are putting so 
much attention on this particular virus, hoping that this will 
not be the one that emerges, and that it will be some future 
virus that will give us more time to prepare for.
    Senator Coleman. If you were in the habit of placing some 
odds, could you give us any measure of the possibilities; are 
we looking at something that is one in a million, or are we 
looking at something that is one in 30, one in 50?
    Dr. Gerberding. I wish I was a gambling woman, and I am 
not, and I really could not possibly speculate on the odds. I 
just know that it is not zero, and it is one of those dilemmas 
in public health where the statistical probability is either 
small or unknown, but the consequences are so enormous that we 
have to do what the Federal Government should do to prepare.
    Senator Coleman. Thank you, Mr. Chairman.
    The Chairman. Senator Talent.
    Senator Talent. Thanks, Mr. Chairman, for this important 
hearing.
    Dr. DeHaven, I am inclined to define success in this area 
as complete prevention, in other words, we just do not see a 
case of this in the United States. Would you agree with that?
    Dr. DeHaven. Certainly.
    Senator Talent. I mean that is the ideal, that is success. 
Do you feel like the Department got enough of the President's 
proposal for money? I looked at it, and out of everything that 
he proposes, like 90 million--I do not want to be parochial on 
behalf of the Department--that just did not seem to me to be a 
lot of that funding. Did you get what you thought you needed? 
Maybe another way to approach that would be, discuss the top 
two or three things that you are doing to prevent this disease 
from reaching our poultry population, and if there was one area 
where you could get some money, of those two or three or four 
things, what would it be?
    Dr. DeHaven. Senator Talent, I think we need to look at it 
in the context of what is already in place. We already have an 
animal disease emergency response mechanism in place. We 
already had an avian influenza program in place, and with a 
recent additional line item specifically for low pathogenic 
avian influenza, that infrastructure is what will help us in 
preventing the introduction, or should it be introduced, a 
response to any avian influenza virus, whether it be this H5N1 
or any other virus.
    We are currently going to, are in the process of bolstering 
our domestic program. We are going to increase wild bird 
surveillance in North America as well as in parts of Asia. That 
provides I think a very good early warning system.
    But I think we need to do more in terms of attacking this 
virus at its source, specifically the birds that are being 
affected in the countries that have the virus. Part of what we 
would do would be to use the monies that the President is 
requesting to put in-country experts into those countries on a 
long-term basis to help them control and eradicate the virus, 
and do so in a way that is appropriate for the infrastructure 
and the industry in those specific countries. We need to work 
very closely in consultation not only with out public health 
colleagues within the United States, but work through 
organizations like the World Health Organization, the FAO and 
the OIE, who already have the contacts and the infrastructure 
in place, and so that the United States would be one country 
out of many participating in that international arena. So the 
monies that would be made available to the United States would 
only be part of the total resources available through the World 
Bank, through other developed countries, in attacking the virus 
at its source in those countries.
    Senator Talent. So what I am hearing you saying is that 
there already is an emergency response mechanism in place, 
which certainly ought to be your answer, because this is not 
the first potential disease that you have had to fight. You are 
pretty comfortable saying we need some more money for 
additional surveillance, and then beyond that you want to 
intensify your efforts to cut this off at the source.
    Dr. DeHaven. That is a very good summation, and indeed, the 
resources that would be made available through the President's 
request for emergency funding allows us to do all of those 
things from enhancing domestic surveillance to working with the 
affected countries through international organizations to 
attack that virus at its source.
    Senator Talent. I am not going to argue with you about it, 
and I think that is actually comforting for you to believe 
that--yes, there is always more we can do, but this did not 
just spring on you, you have anticipated it and other things, 
and it is also good in the context of what we have had all said 
here, that our poultry supply is safe and people need have no 
concerns about that, precisely because we anticipate and 
prevent these kinds of outbreaks before they happen.
    Dr. DeHaven. While I have no doubt about the safety of 
poultry in the United States, I think if we ever get to the 
point where we feel totally comfortable that we are prepared is 
a dangerous situation. We can always do more to prepare both 
domestically, and I think in this particular case there is more 
that we can do and will be doing to attack this virus at its 
source, and in doing so, we not only help those countries, we 
reduce the risk to the United States. There is always more that 
we can do.
    Senator Talent. Well, I will quote you, and I am sure we 
all will when we do our Thanksgiving interviews back home and 
we get the question, ``Is the turkey safe?'' And we will tell 
on your authority that it is, but that there is always more we 
are going to try and do. I appreciate your answers.
    Thank you, Mr. Chairman.
    The Chairman. Dr. DeHaven, from what I think we have 
gleaned from this, there is no question that the domestic 
poultry industry is healthy, but it appears that the easiest 
way that the domestic poultry industry could be infected is 
through the importation or smuggling of some bird into the 
domestic flock. Are you comfortable with the mechanisms that 
you have in place to prevent smuggling from countries that have 
seen an outbreak of this particular strain, into the United 
States?
    Dr. DeHaven. Mr. Chairman, we have taken a number of steps 
to address this particular situation. Back in 2003, when this 
H5N1 virus was first identified, we imposed restrictions on the 
importation of poultry, poultry products and birds from any 
affected countries. We put out alert to our colleagues in 
Customs and Border Protection to be especially vigilant, to 
look for poultry, poultry products from affected countries 
coming into the United States either accidentally or through 
smuggling type activities. We have a team of some 100 people 
within APHIS whose sole purpose is to look for smuggled 
product, and indeed, they have been looking specifically for 
poultry, poultry products being smuggled into the United States 
from affected countries, and indeed, they have in fact found 
some product that was being illegally brought into the United 
States.
    I think we have all of those mechanisms in place. We have 
issued a number of alerts to our Customs and Border Protection 
colleagues. They are acutely aware of the situation, so I feel 
good that they are aware and addressing it as well.
    To the extent that we can be comfortable, again, I am 
hesitant to say that we should ever feel comfortable. We need 
to be ever more vigilant and maintain our guard, particularly 
with regard to this new threat.
    The Chairman. Likewise, Dr. Gerberding, are there 
appropriate methods in place from the standpoint of the CDC to 
prevent the introduction of disease into the United States from 
humans that may have contracted this disease in other parts of 
the world and travel to the United States?
    Dr. Gerberding. Senator, this is a very difficult 
challenge. This virus, if it is like regular flu, may be 
infectious before the individual has symptoms. So a person 
could actually be capable of spreading a flu virus to others 
that they come in contact with before they even recognize that 
they have it. Right now we have no evidence of this kind of 
sustained person-to-person transmission, so there are no travel 
advisories, no travel alerts, and no special precautions for 
returning people, other than advising people not to go to the 
wet markets and the poultry farms in the countries where the 
problem is in outbreak form.
    But we are using the investments that Congress has made in 
our Global Disease Detection Program and our Quarantine Program 
to scale up our quarantine stations, so that at least if there 
was a sick passenger on a plane or someone recognized a 
potential case, that we would have the appropriate procedures 
and medical supervision at our airports and ports of entry to 
be able to help the problem.
    In the last 2 years, because of our investments in global 
disease detection, we have been able to go from eight 
quarantine stations in United States airports to, I believe, 18 
at this point in time. We will have 25 by the end of next year. 
We will have medical officers who have the knowledge and 
capability of quarantining a 747 full of passengers if that 
became necessary. We have been examining that and trying to 
scale this process for flu or any other problem, but it is very 
difficult.
    That is why we are so concerned, that from the Secretary's 
doctrine the first step is to deal with the problem at its 
source in the birds internationally. The second step is if it 
does come more transmissible person-to-person that we 
collaborate with our international partners and do everything 
possible to quench it at its source by supporting access to 
antivirals, the technical support CDC has, the laboratory 
capability we have, and the overall public health 
infrastructure training and support that we can provide. So it 
is most important that we try to develop now in those regions 
that are lacking it so that we have at least a chance of seeing 
this as it emerges and can act aggressively there before it 
gets here.
    There is no guarantee of that, and that is why we also have 
to prepare every community in this country to take the steps 
that it needs to take to do the same thing here in the domestic 
front, and that is a very, very big challenge.
    The Chairman. Well, thank both of you again for being here 
today for this very informative testimony, and we look forward 
to staying in touch. If we continue to see other cases develop, 
particularly those cases that maybe move our way, we may want 
you to come back, and update us. But we thank you very much for 
being here today.
    Dr. DeHaven. Thank you, Mr. Chairman.
    Dr. Gerberding. Thank you.
    The Chairman. We will now move to our second panel, which 
is comprised of Dr. Don Waldrip, Director of Health Services, 
Wayne Farms, Oakwood, Georgia; Dr. Stan Kleven, who is a 
veterinarian. He is a Regents' Professor, College of Veterinary 
Medicine, University of Georgia, Athens; and Ms. Gretta Irwin, 
Executive Director, Iowa Turkey Federation, from Ames, Iowa.
    Welcome to all three of you. We appreciate very much you 
being here today to provide additional information to the 
committee as well as to the American public about this very 
critical issue, and we look forward to your opening statements. 
Dr. Waldrip, we will start with you, and then Dr. Kleven and 
Ms. Irwin.

 STATEMENT OF DONALD WALDRIP, DVM, DIPLOMATE, AMERICAN COLLEGE 
OF POULTRY VETERINARIANS, AND DIRECTOR, ANIMAL HEALTH AND LIVE 
 PRODUCTION, WAYNE FARMS, LLC, OAKWOOD, GEORGIA, APPEARING ON 
             BEHALF OF THE NATIONAL CHICKEN COUNCIL

    Dr. Waldrip. Chairman Chambliss and members of the 
committee, thank you for this opportunity to appear today on 
behalf of the National Chicken Council, which represents 
companies that produce, process and market about 95 percent of 
the chicken sold in the United States. I am Don Waldrip, 
Director of Animal Health and Live Production for Wayne Farms 
in Oakwood, Georgia.
    Let me start by stating some facts that should be obvious, 
but somehow seem to get lost in the media hype and coverage, 
for the possibility of a worldwide flu pandemic.
    First and most important, the H5N1 highly pathogenic strain 
of avian influenza, referred to as Asian flu, does not exist in 
the United States, and has never been present in chickens in 
this country. Avian influenza virus, capable of causing a 
pandemic with sustained human-to-human spread is not known to 
exist anywhere in the world today. If the disease should enter 
the United States, it would be quickly detected through testing 
and surveillance. Disease would be eradicated by isolating the 
affect flocks, destroying all birds in the flock, and testing 
all birds in a controlled area.
    Finally, if the H5N1 virus, now in Asia and Eastern Europe, 
should change and evolve sufficiently to become a direct threat 
to humans in the United States, it is logical to assume that 
the virus would be spread from human to human, rather than from 
birds to humans.
    As referenced earlier, the United States has multiple lines 
of defense against Asian H5N1 highly pathogenic avian 
influenza. First, the United States has never imported any 
poultry products from the countries now affected. They have 
never been authorized to ship poultry products into the U.S. We 
already have extensive surveillance and testing programs in 
place for the commercial poultry industry, and anticipate the 
level of testing will continue to increase. The Federal 
Government, State Governments and the poultry industry work 
cooperatively in this area.
    The U.S. Department of Interior routinely tests migratory 
waterfowl in Alaska and along the Pacific flyway, looking for 
any signs that wild birds might carry the virus to this 
country. Thus far they have found no H5N1.
    The chicken industry has adopted a policy identical to that 
of the U.S. Government, that no one that has been to an area 
where the Asian flu is present should visit a U.S. poultry farm 
or hatchery for at least 7 days thereafter.
    Perhaps the most important point I could make is that the 
poultry industry in the United States is structurally 
different, that is, extremely different, from the industry in 
those Asian countries where H5N1 has posed a major problem. 
Poultry production in the affected areas of Asia relies mostly 
on small farms and free-roaming backyard or village poultry of 
mixed species that come in frequent and close contact with 
people. The virus is present in wild birds, especially 
waterfowl, and there is often a commingling of several domestic 
and wild avian species. In addition, live bird markets are 
popular in most Asian countries. These markets create almost 
perfect conditions for the perpetuation of avian influenza 
viruses.
    In stark contrast, chickens in the United States are mostly 
raised in enclosed houses, a practice which greatly reduces the 
risk of exposure to wild birds and predators. Good biosecurity 
practices are followed on the farms and throughout our 
production, our live operations, and the health status of the 
flocks are monitored throughout the grow-out cycle. We believe 
our commercial poultry industry and the U.S. Government have 
good practices in place to prevent the introduction of Asian 
H5N1 virus into this country. We also believe that our 
monitoring and surveillance programs, and good biosecurity 
practices will help us deal promptly and effectively with any 
mild form of AI that could occur in the future.
    Despite all the media attention and talk of a possible 
human pandemic, no one can say with certainty there will be 
one. In its current form, H5N1 does not easily infect people. 
Perhaps the best way we can prevent a pandemic or keep the 
Asian flu from spreading to other countries including the U.S., 
is to step our efforts to deal with the problem and tackle the 
disease at its source. A top official with a food and 
agriculture organization was quoted last week as saying, ``The 
fight against bird flu must be waged in the backyards of the 
world's poor, where hundreds of millions of chickens dwell 
beyond the reach of vaccination or government scrutiny.''
    The resources needed to stamp out the H5N1 virus at its 
source are staggering. While no one knows for sure how much has 
been spent to date on trying to eliminate H5N1 from poultry 
worldwide, the World Bank estimates that on the basis of 
current programs and pledges, more will be spent on stockpiling 
flu drugs than on efforts to control the disease in poultry at 
its source.
    We believe it would be a good use of resources for nations 
that can afford it to help those that cannot afford to 
eradicate H5N1 virus. That may be one of the most important 
weapons in our arsenal to prevent the spread of H5N1 virus to 
the U.S.
    Thank you.
    [The prepared statement of Dr. Waldrip can be found in the 
appendix on page 76.]
    The Chairman. Thank you very much.
    Dr. Kleven.

STATEMENT OF S.H. KLEVEN, DVM, PhD, REGENTS' PROFESSOR, COLLEGE 
OF VETERINARY MEDICINE, POULTRY DIAGNOSTIC AND RESEARCH CENTER, 
             UNIVERSITY OF GEORGIA, ATHENS, GEORGIA

    Dr. Kleven. Thank you very much, Mr. Chairman. I really 
appreciate the opportunity to be here today. My name is Stan 
Kleven. I am a Regents' Professor at University of Georgia at 
the Poultry Diagnostic and Research Center. We are located in 
Athens, Georgia.
    This is a unit that is very, very well-known worldwide. We 
obviously come from the largest poultry producing State in the 
United States, but we have an extensive teaching program. We 
have a training program for veterinarians to train them in 
poultry disease diagnostic and prevention. We have an extensive 
research program and also we have a diagnostic laboratory where 
we provide services to the poultry industry.
    Risking a little bit maybe repeating some things that other 
people have said, I want to go back and talk a little bit more 
about some of the basic ideas around influenza viruses. For 
example, we have to remember that most influenza viruses are 
not pathogenic. There are quite a large host range of influenza 
viruses, but the most common species involved would be birds of 
pigs, horses, whales, seals and humans. One of the most 
important things to remember about influenza viruses is their 
ability to change, and their ability to surprise us, and this 
is constantly going on.
    Occasionally mutations occur which increase the virulence 
or mutations occur which cause a virus to jump from one species 
to the other, and we really do not know a lot about exactly how 
this occurs or exactly what mutations need to occur. We do know 
that the so-called melting pot for development of new virus 
screens appears to be wild waterfowl, which are apparently 
infected with lots of strains and there is lots of different 
strains that occurs in wild waterfowl, and sometimes mutations 
occur, or sometimes contacts occur with domestic animals that 
allows the virus to jump into another species. We think that 
the very common jumps from the other species are from the wild 
waterfowl into domestic poultry, or a lot of times it could be 
into pigs.
    I would like to say a little bit more about the 
nomenclature also. We talk about the N types and the H types. 
That is only the beginning of the story. The designation H5N1, 
for example, tells us nothing about virulence. There are other 
H5N1s that have occurred many times in other places that are 
not virulent, and may even have infected species other than the 
chicken.
    The term ``high path'' and ``low path,'' I want to clarify 
some of the terminology there because highly pathogenic strains 
or the terminology ``highly pathogenic'' refers to chickens 
only. That is a designation based on challenge of chickens with 
the virus, and a strain which is high path in chickens, for 
example, may or may not be another species. We know, for 
example, over the years that there have been several 
devastating viruses that have occurred in turkeys that really, 
when you challenge chickens, they are not high path by 
definition. So we need to remember that ``high path'' refers to 
chicken only.
    Dr. Waldrip reminded us that we are free of AI in the 
United States, and he talked about the surveillance. We have 
heard a lot about the surveillance programs that are going on 
here. I would just like to remind everybody that a lot of this 
is done by State laboratories and university laboratories, and 
there are a lot of poultry veterinarians around the poultry 
industry in the United States that are very, very familiar with 
this disease, and I think it is highly unlikely that any AI in 
the United States could pop up, especially anything that is 
highly pathogenic that would not be recognized almost 
immediately.
    The low path strains, which may not cause much overt 
disease, I think we would pick them up also relatively quickly 
because of the surveillance programs that we have talked about 
already.
    What are some of the consequences of an AI outbreak? Well, 
the mortality and a loss of production is obvious, but there is 
also the disruptions that would occur, the disruptions in the 
movement of birds to market, and movement of feed from the feed 
mill to the farms, the movement of birds to processing, all 
this may be highly disrupted, and obviously, the loss of 
international trade that would result from the cutting off 
trade with our trading partners.
    A lot has been said about the asiatic strain. I do not 
think I am going to go into that to any extent except to say 
that I think it is clear to everyone that the longer that 
exists, the longer that problem exists in Southeast Asia or in 
Asian countries, the greater the likelihood that that virus is 
going to make that jump and start to spread from human to 
human. If we are really concerned about the human disease, we 
need to do what we can to get at the virus at the source.
    A couple of words about vaccines. We have heard a little 
bit about those today. Vaccines can be very effective in 
preventing disease and preventing clinical signs. What the 
vaccines will not do is stop infection, and one of the reasons 
I think that vaccines are not part of the eradication programs 
is that vaccinated birds will test antibody positive, and it 
can be difficult to differentiate between vaccinated birds and 
birds that might actually carry the virus.
    We have talked a lot about the danger to humans. I do not 
think I will go into that any more.I would like to say a few 
things about resources. We heard some words about resources 
this morning. For one, I have heard that--I do not know 
details, but I understand that a lot of the funding that is 
being proposed is for monitoring, surveillance and emergency 
programs. I think perhaps there is a danger that we might be 
neglecting to do some funding for research here. It is 
difficult for people at the university level, for example, to 
obtain funding to work with avian influenza, and it is 
difficult for many of us to actually propose to work with the 
highly pathogenic strains because there are very, very few 
laboratories that have the facilities that will allow this. One 
of the very few facilities in the United States that actually 
can work with the highly pathogenic strains is USDA's Southeast 
Poultry Research Lab. That laboratory is well-known around the 
world, with some of the most competent scientists in avian 
influenza you will find.
    I do not know if you have ever visited that laboratory, but 
they are crowded. They do not have a place to put another 
person. Their animal care facilities are filled up. And as good 
as they are, I think they could do better if they had some 
better facilities and a better place for people to work because 
they are very, very crowded.
    We have also heard about the National Poultry Improvement 
Plan and the program that has been set up. My understanding is 
that that plan is still in the rulemaking stage, and it is tied 
up. The plan was approved by the Biennial Conference almost a 
year and a half ago now. And my understanding is that it is 
still tied up in rulemaking changes or the rulemaking process, 
and it could be quite some time before the actual process is 
finished and the plan actually put in place. I think that 
anything that could be done to speed this along would be very, 
very helpful.
    I have covered a lot of ground. I may have skipped over a 
few things, but I really appreciate this chance, and thank you 
very much for your attention.
    [The prepared statement of Dr. Kleven can be found in the 
appendix on page 80.]
    The Chairman. Thank you very much.
    Ms. Irwin.

  STATEMENT OF GRETTA IRWIN, EXECUTIVE DIRECTOR, IOWA TURKEY 
                     FEDERATION, AMES, IOWA

    Ms. Irwin. Good morning. My name is Gretta Irwin and I am 
the Executive Director of the Iowa Turkey Federation. I am 
testifying today on behalf of the National Turkey Federation, 
and we appreciate the opportunity of being here.
    Iowa is the Nation's 10th largest turkey producing State, 
and we rank fifth in turkey processing. West Liberty Foods in 
West Liberty, Iowa, and the Sara Lee Foods facility in Storm 
Lake, Iowa process about 18 million turkeys between them, and 
nationally, the turkey industry will raise almost 270 million 
turkeys this year, producing more than 5 billion pounds of 
turkey meat.
    Turkey producers and processors in Iowa, and across the 
United States, have been fighting avian influenza, or AI, long 
before it started making headlines. For our industry avian 
influenza poses a triple threat. It threatens the health of our 
turkeys we raise. It threatens the economic livelihood of our 
processors and the family farmers who grow the birds. And it 
threatens to create a negative public health threat for our 
product. And so we want to keep that perception under control 
as well.
    Fortunately, I am here bearing good news today. The U.S. 
turkey industry has been extraordinarily successful in fighting 
against avian influenza. The one fact that must be underscored 
at this hearing is that there has never been a single case in 
the United States of Asian type of avian influenza. We believe 
Iowa has played a role in this success story by developing a 
model program of industry and Government cooperation to control 
the disease and prevent significant outbreaks.
    I had the privilege of being involved in the development of 
our emergency poultry disease plan, which again we started over 
3 years ago. Since September of 2003, the State of Iowa has 
required that every turkey and every chicken flock in the State 
be tested for avian influenza. These are any turkeys that enter 
our State, and we do bring almost half of our processing kill 
capacity in from the States surrounding the State of Iowa, so 
we are testing those birds as well.
    Iowa State University's diagnostic laboratory then tests 
all of the cases for us, and they also have a test that they 
can, within two to 3 hours, detect the highly pathogenic avian 
influenza strains. If a positive H5 or H7 is found, our program 
requires that the farm is quarantined by the State veterinarian 
for a minimum of 3 months after the last positive sample is 
found. We have procedures in place for the disposal of the 
manure, cleaning of the barn, delivery of feed, rescheduling 
the replacement flocks and pest control are outlined in this 
program. And again, our producers had an active part in 
producing this plan, and so its buy-in across the industry is 
very strong.
    Iowa is not alone in preparing for this emergency. Similar 
programs have been designed in every turkey-producing region of 
our country. Programs like ours in Iowa have helped build this 
track record, but several other critical factors are at work as 
well. First, the modern production techniques used in 
commercial turkey, chicken and egg industries place a premium 
on biosecurity, not only with AI but with all diseases. So by 
not allowing our birds to come in contact with wild birds, we 
are helping control that spread of the disease into our flocks.
    Second, the vertically integrated model of our turkey 
industry gives us a unique advantage to respond and to continue 
to contain any type of disease outbreak. Turkey companies have 
veterinarians that help monitor the flocks. The growers are in 
the barns every day, checking the health and well-being of 
their turkeys. So if a flock of turkeys begins to show a sign 
of any disease, those producers and the processors would do 
testing immediately to see if there is any serious problems 
that need to be taken care of.
    Finally, as I noted earlier, special protocols are in place 
to detect and control any form of AI. This excess gives the 
turkey industry confidence, but it does not make us cocky. A 
series of isolated regional outbreaks of low path AI in 2002 
and 2004 remind us of the need for continued vigilance and 
underscore the challenge posed by live bird markets which were 
the source of these outbreaks. Surveillance of these markets is 
a key component to the new USDA program.
    We have three specific recommendations for the way that 
this committee can help further enhance our preparedness. 
Continue to work closely with your colleagues on the 
Appropriations Committee to continue funding USDA's long term, 
low path AI control program at the maximum level necessary. In 
the rush to enhance our ability to protect human population 
from a possible pandemic, do not forget that prevention begins 
on the farm. While we commend President Bush for calling on 
Congress to provide the $7.1 billion in emergency funding, we 
are dismayed that less than $100 million is targeted toward 
USDA. Congress should make sure USDA's AI research programs are 
fully funded, and that the research facilities are modern and 
up to date and able to conduct the most sensitive research.
    Finally, the United States should take the lead in the 
world in fighting against avian influenza in poultry. Too often 
AI has become a tool in trade battles. Countries like the 
United States that have successfully controlled H5 and H7 
should be rewarded for their efforts, not forced to report 
harmless strains and punished for embargoes when these 
nonthreatening strains appear.
    Thank you for the opportunity to testify here today. I look 
forward to answering any questions that you may have.
    [The prepared statement of Ms. Irwin can be found in the 
appendix on page 82.]
    The Chairman. Thanks to each of you for those very 
informative statements.
    Dr. Waldrip, in your testimony you mentioned that the good 
biosecurity practices of the U.S. poultry industry are critical 
to preventing an outbreak of avian influenza in the United 
States. Can you provide more detail on the U.S. poultry 
industry's biosecurity practices and how they can effectively 
limit disease introduction and spread?
    Dr. Waldrip. Most companies have a staged biosecurity 
program: Normal business, normal procedures, more danger, 
increased biosecurity, and then in the state we are in now, we 
call it high level. In those higher levels we do the things 
that we might not have done earlier under normal circumstances 
that would protect us from the incursion of this disease or any 
other disease.
    All the companies that I am aware of are stepping up their 
efforts in this area, that include restriction on people 
movement, increased clothing that would protect against the 
virus, increased things that would help prevent the incursion 
of any virus that might occur in the area. It is a threat to 
our business and we are responding appropriately.
    The Chairman. Thank you. Again, Dr. Waldrip, on October 14, 
2005, the government of Iraq announced a prohibition on imports 
of poultry products from all sources, citing concerns over the 
spread of highly pathogenic avian influenza. There was an 
immediate disruption in U.S. poultry meat exports and sales to 
the region. I understand that the U.S. Government has recently 
received a letter lifting the restrictions on poultry from 
countries not affected by highly pathogenic avian influenza, 
officially allowing trade to flow from the United States. A 
specific concern was the flow of product across the Turkish 
border into Kurdish areas of Iraq. Do you have any additional 
information to report, and can you confirm that U.S. product is 
indeed moving across the border into Iraq?
    Dr. Waldrip. Our company is a moderate exporting company, 
and I do not think we export in that area, so as far as I know 
product is flowing.
    The Chairman. Dr. Kleven, there has been much speculation 
on the role of wild bird populations in the spread of avian 
influenza from Southeast Asia to parts of Europe. There is also 
a concern that the disease may spread to the Middle East, parts 
of Africa and potentially the United States. Can you comment on 
the role of wild birds in disease spread and the measures we 
have in place to ensure that this disease does not reach the 
U.S. from wild birds?
    Dr. Kleven. Most influenza viruses do not clinically affect 
wild birds. This is one that is different. This one has been 
reported to actually kill some wild birds or wild waterfowl. 
Fortunately, the natural flyways around the world are north and 
south, and with very little transfer from the Asiatic-European 
continent over to the Americas, but there is a little bit. And 
there are several agencies, State agencies, an agency in 
Athens, Georgia, for example, the Southeast Cooperative 
Wildlife Study, that have very active surveillance programs 
going on. And hopefully, and I think with some confidence, that 
if such an exchange occurs, that it will be picked up pretty 
quickly.
    But in addition to just that virus, wild waterfowl are 
known to carry all kinds of influenza viruses, and as a matter 
of good practice, I think that our method of raising poultry by 
keeping birds confined is a very, very good barrier between the 
wild birds and the domestic birds.
    I guess one other comment that I would make on this is the 
regulations on organic poultry raising. My understanding is 
that there is a requirement to label your product as organic 
poultry. These birds have to have the ability to gain access to 
the outdoors, and this is an absolute requirement, as far as my 
understanding, for the organic label. And I think that it would 
be a very, very good idea if we could do something to change 
that, to make that at least optional so that these birds could 
be confined and sheltered from wild birds.
    The Chairman. In your testimony you cite concern with live 
bird markets. Can you clarify the situation in live bird 
markets for members of the committee and comment on the Federal 
Government's role in the monitoring and surveillance of these 
areas?
    Dr. Kleven. The main concern with live bird markets in the 
United States is the New York/New Jersey market. That market, 
we are quite certain, was involved with exposing the commercial 
poultry industry in Pennsylvania back in--I do not remember, 
1990 something--and caused that big epidemic. After that there 
has been a large State-industry-Federal effort made to increase 
surveillance in those wild bird markets, to institute a program 
for sanitation, periodic cleanup, and I think they have made a 
lot of good progress on that, but they are still making 
isolations of an H7N2 virus, which seems to be quite pathogenic 
and still remains, in my view, just as big a risk to the U.S. 
poultry industry as the H5N1 from Asia.
    I think we also should not forget that Mexico has an 
endemic H5N2 influenza virus and that we need to maintain 
surveillance from that direction also.
    The Chairman. Ms. Irwin, I do not think we can 
overemphasize this enough, particularly with Thanksgiving 
coming up. One of the dearest traditions, obviously, is the 
gathering of folks to eat turkey on Thanksgiving Day. Mentioned 
in today's testimony, and a point I want to confirm and 
highlight for the American people is the fact that avian 
influenza is not in our food supply, and that even if it was, 
the proper handling and cooking of food would protect us as we 
gather around the table to eat and give thanks next week. Any 
comments that you would like to add to what has been said today 
relative to that?
    Ms. Irwin. As a home economist and working with consumers 
in the State of Iowa, I continue to emphasize on that as well, 
that our surveillance plans that we have in place and the 
monitoring that we are doing, and the knowledge of our 
producers to look for this, and the processors' concern and 
care for this as well, should ensure all consumers that the 
products that they will enjoy, any of the poultry products, 
including the turkey, is perfectly safe this holiday season.
    The Chairman. You described in your testimony a 
comprehensive State response system to deal with potential 
introduction of AI. To what extent is Iowa's response plan 
integrated with neighboring States, and is there a marginal 
benefit to establish and implement regional response plans 
focused on protecting the agricultural sector?
    Ms. Irwin. The plan we have in Iowa was really modeled 
after a plan that Minnesota has been using for about 20 years, 
so as we continue to test birds, similarly they are doing the 
same thing in Minnesota and some of the surrounding States. And 
as I mentioned in my comments, almost half of our processing 
capacity comes in from those surrounding States.
    So I know that in working with Dr.Schultz, our State 
veterinarian, that if there was something that showed to be a 
positive and that bird originated from one of those other 
States--which our processors would know that because when the 
tests come back we actually know which county anything would 
come through if there was something positive--that that State 
veterinarian then would in turn work with the other 
veterinarians in the other States, and the Federal veterinarian 
in charge of our region would be involved automatically as 
well.
    So the communication has started and is really pretty well 
in place to help make sure that all of our surrounding States 
within that central region of the United States would 
communicate quite quickly and very effectively.
    The Chairman. Well, let me again thank each one of you for 
being here today, and helping give comfort to this committee 
and the American people about this issue, and we look forward 
to staying in touch with you if there are additional problems 
that arise relative to this. We would like to have you 
available as a resource to help us work through the issues from 
a legislative perspective.
    We will leave the record open for the remainder of the day. 
If there are any written questions, we will direct them to you, 
and we would appreciate your response right away. Thank you 
very much.
    This hearing is concluded.
    [Whereupon, at 11:48 a.m., the committee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                           NOVEMBER 17, 2005



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T8423.055

[GRAPHIC] [TIFF OMITTED] T8423.001

[GRAPHIC] [TIFF OMITTED] T8423.002

[GRAPHIC] [TIFF OMITTED] T8423.003

[GRAPHIC] [TIFF OMITTED] T8423.004

[GRAPHIC] [TIFF OMITTED] T8423.005

[GRAPHIC] [TIFF OMITTED] T8423.006

[GRAPHIC] [TIFF OMITTED] T8423.007

[GRAPHIC] [TIFF OMITTED] T8423.008

[GRAPHIC] [TIFF OMITTED] T8423.009

[GRAPHIC] [TIFF OMITTED] T8423.010

[GRAPHIC] [TIFF OMITTED] T8423.011

[GRAPHIC] [TIFF OMITTED] T8423.012

[GRAPHIC] [TIFF OMITTED] T8423.013

[GRAPHIC] [TIFF OMITTED] T8423.014

[GRAPHIC] [TIFF OMITTED] T8423.015

[GRAPHIC] [TIFF OMITTED] T8423.016

[GRAPHIC] [TIFF OMITTED] T8423.017

[GRAPHIC] [TIFF OMITTED] T8423.018

[GRAPHIC] [TIFF OMITTED] T8423.019

[GRAPHIC] [TIFF OMITTED] T8423.020

[GRAPHIC] [TIFF OMITTED] T8423.021

[GRAPHIC] [TIFF OMITTED] T8423.022

[GRAPHIC] [TIFF OMITTED] T8423.023

[GRAPHIC] [TIFF OMITTED] T8423.024

[GRAPHIC] [TIFF OMITTED] T8423.025

[GRAPHIC] [TIFF OMITTED] T8423.026

[GRAPHIC] [TIFF OMITTED] T8423.027

[GRAPHIC] [TIFF OMITTED] T8423.028

[GRAPHIC] [TIFF OMITTED] T8423.029

[GRAPHIC] [TIFF OMITTED] T8423.030

[GRAPHIC] [TIFF OMITTED] T8423.031

[GRAPHIC] [TIFF OMITTED] T8423.032

[GRAPHIC] [TIFF OMITTED] T8423.033

[GRAPHIC] [TIFF OMITTED] T8423.034

[GRAPHIC] [TIFF OMITTED] T8423.035

[GRAPHIC] [TIFF OMITTED] T8423.036

[GRAPHIC] [TIFF OMITTED] T8423.037

[GRAPHIC] [TIFF OMITTED] T8423.038

[GRAPHIC] [TIFF OMITTED] T8423.039

[GRAPHIC] [TIFF OMITTED] T8423.040

[GRAPHIC] [TIFF OMITTED] T8423.041

[GRAPHIC] [TIFF OMITTED] T8423.042

[GRAPHIC] [TIFF OMITTED] T8423.043

[GRAPHIC] [TIFF OMITTED] T8423.044

[GRAPHIC] [TIFF OMITTED] T8423.045

[GRAPHIC] [TIFF OMITTED] T8423.046

[GRAPHIC] [TIFF OMITTED] T8423.047

[GRAPHIC] [TIFF OMITTED] T8423.048

[GRAPHIC] [TIFF OMITTED] T8423.049

[GRAPHIC] [TIFF OMITTED] T8423.050

[GRAPHIC] [TIFF OMITTED] T8423.051

[GRAPHIC] [TIFF OMITTED] T8423.052

[GRAPHIC] [TIFF OMITTED] T8423.053

[GRAPHIC] [TIFF OMITTED] T8423.054

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           NOVEMBER 17, 2005



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T8423.056

[GRAPHIC] [TIFF OMITTED] T8423.057

[GRAPHIC] [TIFF OMITTED] T8423.058

[GRAPHIC] [TIFF OMITTED] T8423.059

[GRAPHIC] [TIFF OMITTED] T8423.060

[GRAPHIC] [TIFF OMITTED] T8423.061

      
=======================================================================


                         QUESTIONS AND ANSWERS

                           NOVEMBER 17, 2005



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T8423.062

[GRAPHIC] [TIFF OMITTED] T8423.063

[GRAPHIC] [TIFF OMITTED] T8423.064

[GRAPHIC] [TIFF OMITTED] T8423.065

                                 <all>

</pre></body></html>
